                                                NA TJONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Case Number: 1-11060026-                                                              Page 1 of 1



       This case was opened following contact from another agency 1 that identified potential primary
       employment issues related to SBIR awards made to a company?

       No eligibility issues were substantiated. We reviewed the company's award expenditures and
       found no improper expenses.

       This case is closed with no further action taken.




NSF OIG Form 2 (11/02)
